                                  U.S. SMALL BUSINESS ADMINISTRATION
        \. Blls1
.   b                                 OFFICE OF INSPECTOR GENERAL
                                          Washington, D.C. 20416
                       •
    '<\r,ff,.. ..o\"                                                     AUDIT REPORT
                                                                      Issue Date:
                                                                      February 14, 1997
                                                                      Number: 7-6-H-007-008

        TO:                Robert J. Moffitt
                           Associate Administrator
                           Office of Surety Guarantees


        FROM:
                           k I !lh fk. kef._
                           Peter L. McClintock
                           Assistant Inspector General for Auditing

        SUBJECT:           Audit of Fidelity and Deposit Company of Maryland's Underwriting
                           Process


                                                BACKGROUND

               Federal construction contracts of $100,000 or more, as well as certain
        private, state and local government contracts, require contractors to be bonded.
        Surety bonds ensure that should a bonded contractor default, a construction
        project will be completed and the contractor's employees and material suppliers will
        be paid. SBA can guarantee bonds for construction and services contracts up to
        $1,250,000 if ( 1) the principal is a small business, (2) the bonds are required to
        obtain the contract, and (3) the business is unable to obtain a bond without the
        SBA guarantee. SBA guarantees up to 90 percent of losses incurred and paid on
        bonds that the surety company would not underwrite without SBA's guarantee.

               The surety bond guarantee program consists of two programs--the prior
        approval progr.am and the preferred program. Any surety company certified by the
        U.S. Treasury to issue bonds may be eligible to participate in the prior approval
        program, but the bonds are subject to SBA's prior review and approval. In the
        preferred program, SBA certifies "preferred" surety companies to issue, monitor,
        and service SBA guaranteed bonds without SBA's prior review and approval. SBA
        reimburses a preferred surety an amount not to exceed 70 percent of the loss
        incurred and paid. Fidelity and Deposit Company of Maryland (F&D), located in
        Baltimore, Maryland, was granted preferred surety status in May 1990.
                          AUDIT OBJECTIVE AND SCOPE

      The audit objective was to determine whether F&D underwritings conformed
to SBA requirements. The audit covered F&D's underwritings from October 1,
1994 to July 31, 1996. We selected for review 50 bonds totaling $35.7 million
where the contractors received two or more bonds on the same day, consecutive
numbered bonds, or bonds exceeding $1 ,000,000. Field work was conducted
from August 1996 to November 1996 at the F&D's office in Baltimore, Maryland.
The audit was performed in accordance with Government Auditing Standards.


                          FOLLOW-UP ON PRIOR AUDITS

      We issued audit report No. 3-2-W-404-008 on F&D dated October 19, 1992.
There were no unresolved issues.


                                RESULTS OF AUDIT

       F&D's underwritings were not always consistent with SBA requirements.
We found SBA provided guarantees of $5.3 million for 10 bonds when F&D split
contracts to avoid SBA's limits and issued bonds after work was shown as
commencing. Also, F&D's application form did not capture the actual start dates
for the bonded contractor. As a result, SBA's potential liability increased and SBA
did not have sufficient information on actual start dates to determine whether the
guarantee should be honored.


Finding 1 .   SBA Guarantees Issued For Ineligible Contracts

        F&D did not follow SBA policies and procedures for underwritings by
splitting contracts and issuing bonds on an untimely basis; as a result, SBA
guaranteed $5.3 million of ineligible bonds. The Code of Federal Regulations, at 13
CFR 115.12(e), sets the limit of contracts to be bonded at $1,250,000 and
generally requires the amounts of two or more contracts for a "single project" to be
aggregated to determine the amount. Also, 13 CFR 11 5.64 states no bonds can
be issued after commencement of work without SBA approval. The following chart
shows the ineligible contracts.




                                         2
                                                     INELIGIBLE BONDS

                                                                          INELIGIBLE DUE TO


                                                                                            BONDS ISSUED AFTER
          BOND NUMBER                 AMOUNT                   CONTRACT SPLIT               WORK COMMENCED'

          r              -,           $ 1,100,000              $ 1,100.000                  $ 1,100,000

                                          1.200,000                1   1nn nnn                1.200.000

                                              446,184                  445,184                  446,184

                                              490.992                  490,992                  490,992

                                              593,824                  593.824                  593.824

                                              655.212                                           655,212

                                              649,000                  649,000

                                              874,000                  874,000

                                              694.000                  694,000

         L               J                    895,000                  '895,000

          TOTALS                      $   7   <07 . . .        t   ~   Q40   nn.            $4 4R~.212

          SBA GUARANTY                         .70
          PERCENTAGE


          INELIGIBLE GUARANTEE        • 6.319.0




Split Contracts

c                        J
       F&D issued 1:                               :l five SBA guaranteed bonds
related to two contracts which exceeded the SBA eligibility requirement. The
contracts were split into different projects even though they related to the same
prime contractor, location, specific work and time period. An F&D official agreed
that the contracts were split and should not have been eligible for the SBA surety
bond guarantees.

c                    ]

       F&D issued c:.          J four SBA guaranteed bonds related to two
projects which exceeded the SBA eligibility requirement. The projects were split
between plumbing, heating and air conditioning which covered the same general


      F&O records showed that six bonds were issued during March ~                 J whereas work had begun for five during
      January C    ] and December l   j in the other case.

                                                           3

                                                            fOIA
              contractors, time periods and locations. The broker stated they were each only
              one contract, however, they had each of the prime contractors write two contracts
              so they would meet SBA requirements.

                      On October 14, 1996, F&D issued a memorandum to all surety branch and
              satellite managers informing them of our findings on splitting contracts so they
              could avoid the same scenario in the.future. On November 13, 1996, F&D issued
              a memorandum to itsC:        .   J'Surety Office informing them that the SBA
              guarantees on the 1:        1 bonds were being removed.


              Commencement of Work

                     The records of F&D show that F&D inappropriately issued six SBA surety
              bond guarantees tot          :l after the commencement of work by the contractor.
              Title 13 CFR 115.64 prohibits the execution or approval of a bond by preferred
              sureties after commencement of work unless written approval is obtained from
              SBA. Written approval from SBA was not obtained.


              Recommendations

                   We recommend that the Associate Administrator, Office of Surety
              Guarantees, notify F&D:

              1A.   That SBA will deny liability for those bond guarantees where contract work
                    was split to avoid SBA's limits or the contractor started work prior to the
                    bond being issued without written approval from SBA.

              1B.   To follow their established written procedures prohibiting the splitting of
                    contracts to meet SBA guarantee eligibility.

              1C.   To establish written procedures to ensure that bonds are not issued after
                    work has commenced without SBA approval.


              SBA Management's Response

                    The AA/OSG agreed with the recommendations.




                                                       4
                                                           fotA    l:::x,   4


_,....,.,,,
       Finding 2.    Start Date Not DOcumented

              The form used by F&D does not capture the actual start date for the bonded
       contractor. The regulations, at 13 CFR 115.64, prohibit the execution or approval
       of a bond by preferred sureties after commencement of work unless written
       approval is obtained from SBA. F&D officials ·agreed and initiated action during the
       audit to redesign the form to include the actual start date. Without an actual start
       date, SBA would be unable to determine if the SBA guarantee should be honored.


       Recommendation

       2.     We recommend that the Associate Administrator, Office of Surety
       Guarantees, followup with F&D to ensure that their proposed procedures to identify
       actual start dates has been implemented.


       SBA Management Response

             The AA/OSG agreed with the recommendations .


                                            ........
              The findings included in this report are the conclusion of the Office of
       Inspector General's Auditing Division based on testing of the auditee's operation.
       The findings and recommendations are subject to review, management decision,
       and corrective action by your office in accordance with existing Agency procedures
       for audit follow-up and resolution.

             Please sign the attached SBA Forms 1824, Recommendation Action Sheet.
       Should you or your staff have any questions, please contact Victor R. Ruiz,
       Director, Headquarters Operations, at (202) 205-7204.

       Attachments




                                                 5




_,_,
